ASSESSMENT
             ORACLE E-BUSINESS SUITE RELEASE 2
REPORT        INDEPENDENT VERIFICATION AND
08-13          VALIDATION (IV&V) – PROGRAM
                      MANAGEMENT

                       September 30, 2008




        OFFICE OF INSPECTOR GENERAL

                                                                 Memorandum
                                                                  OFFICE OF THE INSPECTOR GENERAL
                         WASHINGTON, DC 20401




    DATE:     September 30, 2008

REPLY TO
 ATTN OF: Assistant Inspector General for Audits and Inspections

 SUBJECT:     Final Report on Assessment of Oracle E-Business Suite Release 2 Independent
              Verification and Validation (IV&V) – Program Management
              Report Number 08-13

      TO:     Chief Financial Officer (Executive Sponsor of the Oracle Program)


      The GPO Office of Inspector General (OIG) is conducting independent verification and
      validation (IV&V) of GPO’s E-Business Suite Release 2 implementation. The OIG
      contracted with Noblis1 to conduct IV&V for Release 2. The overall objective of IV&V
      is to determine whether the system implementation is consistent with the Oracle project
      plan and cost plan, and whether the delivered system meets GPO’s requirements. The
      OIG’s contract with Noblis tasks the company with assessing program management,
      technical, and testing activities associated with the Release 2 implementation. Noblis is
      required by the contract to issue to the OIG a monthly program risk assessment as well as
      summary reports for program management IV&V, technical IV&V, and testing IV&V.

      The enclosed report is Noblis’ summary report on Oracle Release 2 program
      management. Program management IV&V focuses on activities that define and shape
      the program and projects that support them. As part of program management IV&V,
      Noblis analyzed program and project schedules, development processes (e.g., change
      management, issue tracking, and risk management approaches) and conducted risk
      analyses.

      Section 6 of the report contains 13 recommendations designed to strengthen current and
      future Oracle program management efforts. Recommendations 3, 4, 5, and 13 were also
      made by Noblis in their December, 2005 IV&V report on the early Oracle
      implementation effort.2 Therefore, we asked for responses to these recommendations.
      Additionally, management should consider the remaining recommendations when


      1
        Noblis, located in Falls Church, Virginia, is a nonprofit science, technology, and strategy organization
      that helps federal and private sector clients solve complex systems, process and infrastructure problems.
      2
        GPO completed an early implementation of certain licensed Oracle E-Business Suite modules in order to
      become familiar with Oracle technology and work process dependencies, and to develop successful project
      skills and user requirements. Noblis conducted IV&V activities associated with this early implementation.
planning for the Oracle Release 3 project. Management concurred with each of the four
recommendations. We consider the actions taken and proposed by management
responsive to each of the four recommendations.

Management’s response is included in its entirety in Appendix A of the report. Based on
management’s response and our subsequent follow-up activities, we are closing
recommendations 3, 4, and 5 upon issuance of this report. Recommendation 13 will
remain open for reporting purposes until the IV&V has completed follow-up work on this
issue. The status of each recommendation upon issuance of this report is included in
Appendix B.

If you have questions concerning this report or the IV&V process, please contact
Mr. Brent Melson, Deputy Assistant Inspector General for Audits and Inspections at
(202) 512-2037, or me at (202) 512-2009.




Kevin J. Carson
Assistant Inspector General for Audits and Inspections

Enclosure

cc:
Chief of Staff
Chief Management Officer
Chief Information Officer
Chief Technology Officer




                                           2
                                    ENCLOSURE


  Government Printing Office




      Oracle Release 2:
Program Management Review

            Final

           July 2008




                       3150 Fairview Park Drive South
                        Falls Church, VA 22042-4519
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY


                                                             TABLE OF CONTENTS


SECTION                                                                                                                                                          PAGE
EXECUTIVE SUMMARY .........................................................................................................................................1
1.0         INTRODUCTION .........................................................................................................................................2
    1.1         PURPOSE......................................................................................................................................................2
    1.2         BACKGROUND .............................................................................................................................................2
2.0         PROGRAM MANAGEMENT REVIEW ...................................................................................................2
    2.1         OBJECTIVES .................................................................................................................................................3
    2.2         STAKEHOLDERS...........................................................................................................................................3
    2.3         COMMUNICATIONS ......................................................................................................................................4
    2.4         PERFORMANCE MEASURES..........................................................................................................................5
    2.5         ORGANIZATIONAL CHANGE MANAGEMENT ................................................................................................5
3.0         PROGRAM MANAGEMENT OFFICE STRUCTURE ANALYSIS ......................................................5
4.0         COST AND SCHEDULE REVIEW ............................................................................................................7
    4.1         SCHEDULE ANALYSIS REVIEW ....................................................................................................................7
    4.2         COST ANALYSIS REVIEW.............................................................................................................................7
5.0         PERFORMANCE ANALYSIS REVIEW...................................................................................................8
    5.1         DELIVERABLES ............................................................................................................................................8
    5.2         RESOURCES .................................................................................................................................................9
    5.3         ISSUE RESOLUTION......................................................................................................................................9
6.0         RECOMMENDATIONS ............................................................................................................................10
7.0         CHALLENGES ...........................................................................................................................................12
APPENDIX 1: GPO SDLC PHASE GATES .........................................................................................................13




                                                                   LIST OF TABLES


TABLE                                                                                                                                                            PAGE
TABLE 1: RELEASE 2 DELIVERABLE LISTING .................................................................................................................9
TABLE 2: RECOMMENDATIONS .....................................................................................................................................11
TABLE 3: RELEASE 2 CHALLENGES ..............................................................................................................................12




07/14/08                                                                            ii                                                For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY


Executive Summary
The Government Printing Office (GPO) is implementing the Oracle E-Business Suite in a series
of phased releases that are introducing incremental functional capabilities. GPO has completed
some early implementation start-up projects to become familiar with Oracle technology and
work processes and to develop successful project implementation skills. This review was
undertaken as part of the Independent Verification and Validation (IV&V) activities associated
with the Release 2 project. The main goal of the Release 2 project is to implement the Projects
module, consisting of Project Costing and Project Billing. Other capabilities will be added to
Purchasing, Inventory, Accounts Payable, Receivables, and other implemented Oracle modules.

The recommendation for improving program management for the current Oracle Release is:
    Issue tracking should include the assignment of the responsible party for the resolution, that the
         issue tracking process be formally documented, and that an issue tracking process be a formalized
         deliverable.

Specific recommendations for improving program management for future Oracle Releases
include:
     Fully follow a standard format for Concept of Operations development.
     Utilize a Project Management Plan to provide integration across task efforts.
     Conduct more deliberate stakeholder management.
     Establish a communications plan and facilitate users to more actively engage in
       communicating issues to the project team.
     Establish performance measures to be able to identify and manage specific benefits being
       delivered.
     Establish an Organizational Change Management (OCM) approach at the program level
       to more effectively enable affected stakeholders to adopt changes being introduced.

In establishing a program office and further enhancing future project management at GPO,
recommendations for the role of the program versus the project include:
     Program responsibilities should include strategic items such as stakeholder management,
        benefits management, and program governance as well as coordinating and optimizing
        resource allocation.
     Project responsibilities should include all of the tactical concerns, specifically including
        the GPO phase gates 2 and beyond.
     Adopt a process for evolving capabilities, functions, and roles as GPO becomes more
        mature at program management.

The Release 2 project has had some difficulties associated with requirements gathering and “To-
Be” process definitions. These difficulties have materialized in part due to ineffective
stakeholder management, including communications. Also, deliberate OCM engagement was
absent. However, some of these weaknesses have been identified and steps taken to remedy
them.3 Future releases should more proactively manage these relationships from project
initiation to minimize these difficulties.


3
    Please see Section 6 for recommendations to mitigate weaknesses identified.


07/14/08                                            1                             For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY



Introduction

                                           Purpose

The purpose of this document is to review the program and project management activities
associated with the Oracle Release 2 implementation project. The types of activities reviewed
included appropriate planning and actual reporting documents from the program and the project
level. Interviews with project stakeholders were also performed. Recommendations for
improving the program and project processes are documented to assist with the current and
future projects related to this program as well as general program management at the
Government Printing Office (GPO).

                                         Background

GPO was created on June 23, 1860 to satisfy the printing needs of Congress. Today the agency
is the focal point for the printing and information dissemination needs of the entire Federal
community. GPO is moving towards the future of digital documents and the distribution of
information electronically. To help facilitate this mission, GPO has licensed various modules of
the Oracle E-Business Suite to help improve its information architecture.

GPO is implementing the Oracle E-Business Suite in a series of phased releases which will
incrementally increase functional capability. Early implementation projects were completed to
become familiar with Oracle technology and work processes and to develop successful project
implementation skills, processes, and user/user support requirements. These earlier projects
introduced the General Ledger, Accounts/Receivable, and Fixed Assets modules, as well as
limited functionality associated with Purchasing and Inventory.

The Oracle Release 2 project is currently scheduled to go live on October 1 st, 2008. This was
pushed back from an August go live date to reduce audit expenditures associated with year end
audit functions in two systems.

Program Management Review
Program management review is concerned with activities that define and shape the program and
the projects that support them. These activities include establishing objectives for the program
and associated projects, identifying key stakeholders that have an interest in the success of the
program and projects, the communication activities which publish relevant information to those
stakeholders, performance measures by which success will be determined, identifying and
monitoring assumptions used in planning activities, and the change control process by which
modifications to the assumptions and scope are managed. During our review of program
management for Release 2, we identified several weaknesses requiring management attention.
We have briefed the Oracle Program Executive Sponsor and the GPO Chief Information Officer




07/14/08                                        2                           For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY

monthly beginning on March 3rd with the most recent presentation taking place on June 4th
2008.4

                                           Objectives

Objectives for the Release 2 project were identified in the “Oracle Implementation Plan Release
II – Concept of Operations.” The objective of this effort is identified as “to convert all
inventories, cost ledger functionality and purchasing to Oracle.” The benefits of this project are
identified as:
       “…improve cash management and allow for improved control of inventory flows.”
       “…improve the efficiency of print procurement business processes”
       “…and enable GPO to provide print procurement services to the Congress and other
         customers from an off-site Oracle facility… in the event of an emergency”5

In general, a Concept of Operations (CONOPS) document provides guidance and coordination to
the effort and allow for appropriate determination of the pace of implementation. Further, a
CONOPS provides a foundation for integration planning with other efforts. The CONOPS along
with a Project Management Plan would provide the high level guidance to this project, serve as
coordinating guidance for other efforts impacted by the Oracle program, and be the primary
integrating plan for the project.

The existing CONOPS roughly follows the Institute for Electrical and Electronics Engineers
(IEEE) standard, Standard 1362 for CONOPS documents, and provides a good level of detail
related to the existing systems. However, the Release 2 CONOPS is missing some of the details
necessary for several of the sections, including Operational Scenarios and Summary of Impacts.
These sections are particularly relevant to the user community and would be beneficial to help
them understand the impacts to their work processes. It is recommended that future CONOPS
provide additional details and more thoroughly match the IEEE Standard 1362 (or other similarly
accepted format such as ANSI Standard G-043-1993 “Guide for the Preparation of Operational
Concepts Documents”)6. It is further recommended that a Project Management Plan be
developed for future projects to serve as the overarching integration framework for the project
activities. Both of these documents should be periodically updated to remain current and
relevant to the stakeholders of the program.

                                          Stakeholders

Stakeholders are those “individuals or organizations that are actively involved in the project” or
who may be affected by the project and can exert influence on the outcomes of the project7.

4
    Please see Challenges: Section 7.0.
5
  Oracle Release II – Concept of Operations, November 30, 2007, p.5
6
  Please see Recommendations: Section 6.0
7
  “A Guide to the Project Management Body of Knowledge”, Project Management Institute, ©
2004


07/14/08                                         3                           For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY

These are typically groups both within the organization, such as the various business units, as
well as outside of the organization, such as external customers and oversight groups such as the
Joint Committee on Printing (JCP).
A listing of specific stakeholders associated with Release 2 was not identified, although the user
classes were listed in the CONOPS. While user groups are often equated with stakeholders,
there are often important relationships beyond affected system users that require appropriate
management, including communicating business impacts. It is recommended that future releases
clearly identify stakeholders (as was done for the Early Implementation Sub-Store 9916 effort)
and deliberately conduct stakeholder management.

                                      Communications

Program and project communications include the timely and appropriate generation, collection,
dissemination, storage, and disposition of information to the program and project stakeholders.
Appropriate planning for communications identifies the information needs of the stakeholders
(both what data they need and how often they need it), the responsible party for providing the
communication, and the mechanism for distributing the data. Lack of good communications can
lead to unrealistic expectations, disagreement regarding objectives and requirements, and
improper planning due to faulty status data.

No documented communications plan was identified for the Release 2 project. However, weekly
meetings have been a standard part of the communications effort. It was identified, via various
feedback mechanisms, that users felt as if they were not able to provide meaningful input. The
project team added additional mechanisms for communicating, such as the email accounts along
with a comments tracking log. The project team has taken additional steps to allow for
meaningful dialogue with the user community, which have been met positively.

However, the user community itself also needs to take an active role in managing
communications and providing meaningful input to the project team. Executive sponsors have
been actively monitoring the situation. In some cases, functional areas (i.e., Customer Service),
have not participated in various activities to a meaningful degree. This leads to incomplete
information exchange. In addition to the project team ensuring the access and ability for users to
provide input, the functional leadership also needs to take ownership of and be actively
monitoring the degree of participation and input to project communications. Corrective action
needs to be taken in cases where participation is less than satisfactory.

As stated in the Program Review Report for the Early Implementation projects, a formal
communication plan should be part of project planning and it is recommended that one be
included in future releases. This plan should define:
     The methods for gathering and storing information
     Mechanism for capturing issues and risks
     A distribution structure that identifies who will receive the information, and at what
        frequency
     The types of information to be distributed
     The responsible party for the data distribution


07/14/08                                        4                           For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY


      Processes for communicating to all stakeholders
      Methods for accessing information between scheduled communications

                                  Performance Measures

Performance measures are the methods used to identify the successful achievement of objectives.
No performance measures were identified for Release 2. Project success is presumed to be
determined by the successful completion of user testing and sign-off by executive-level
stakeholders.

Without formal project (and program) performance measures it becomes difficult to determine or
validate project success. It is recommended that performance measures be identified up-front for
future Oracle releases and that these measures be reviewed and validated on a periodic ongoing
basis. Given the current project progress, it would be inappropriate to establish performance
measures for Release 2 at this time. Project-level performance measures should be tied to
program-level objectives. In addition to the broad project performance categories such as
schedule and cost, GPO should establish functionality measures (such as number of requirements
within scope delivered), quality measures (related to software defects by categories), and
customer satisfaction measures. Program measures could include alignment with GPO business
goals and enterprise architecture.

                       Organizational Change Management (OCM)

OCM is the process by which the impacts to the business processes and organizational elements
are effectively managed. Not to be confused with change management as an information
technology process, OCM deals substantially with the people aspects of change and allows for
the adaptation of the organization to the new process, procedures, policies, and tools. No OCM
process was identified for Release 2.

Components of an OCM program may include surveys to identify stakeholder perceptions,
management of the external communication process as defined in the communications plan,
management of the user training requirements, and delivery of business change information,
among other elements. It is recommended the future releases strongly consider establishing an
OCM approach at the program level to facilitate and smoothly enable change.

Program Management Office Structure Analysis
GPO is currently updating and reestablishing a program management organization structure for
the Oracle program. This section reviews best practices and GPO policy and provides
recommendations for delineation of responsibilities between program and project management in
order to improve effectiveness.




07/14/08                                       5                          For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY

Program Management Office (PMO) structures vary widely across organizations and have
varying levels of authority. Further, the scope of responsibilities for PMOs also varies widely.8
Partly, this is the result of the particular situation of each organization and the perceived benefit
of establishing a PMO. GPO has some unique challenges in establishing an effective PMO for
the Oracle program and in general for the agency. Some of these challenges include:

         Limited cadre of broadly experienced project managers.
         Formulation of project/program management practices are still occurring.
         Perceived lack of consensus on the roles and responsibilities of a PMO.

The Project Management Institute’s (PMI) standard for program management identifies a
program as a “group of related projects managed in a coordinated way to obtain benefits and
control not available from managing them individually.”9 The functions defined in this standard
that are unique to program management are benefits management, stakeholder management, and
program governance. Program management also serves as a coordinating and resource
optimizing function, as well as an escalation point.

GPO has an existing instruction dealing with distinction between program management and
project management and identifies some of the responsibilities assigned to each. 10 This guidance
is in line with the PMI standards for program and project management. In general, tactical day-
to-day concerns are the responsibility of the project and strategic items are the concern of the
program. Using the GPO Phase Gate items (see Appendix 1), this would generally indicate
Phase 1 would be the responsibility of the program, while the remaining phases (Phase 2 and
beyond) would predominantly be the responsibility of the project. The program would perform
oversight of these phases and ensure the project team is keeping on track with the performance
measures (i.e., the benefits management component).

Gartner11 also identifies that capabilities associated with project and program management
should ideally be considered in the context of a organizational maturity, with increasing levels of
capability being adopted by the organization, and extending to portfolio management.12,13 The
recommendations for future GPO projects include the following:
8
  “The Multi-Project PMO: A Global Analysis of the Current State of the Practice,” Dr. Brian
Hobbs, July, 2007
9
  The Standard for Program Management, PMI, © 2006, p.4
10
   “GPO Information Technology System Development Life Cycle Policy”, Classification
705.28, December 12, 2005
11
   Gartner, Inc. (NYSE: IT) is a leading information technology research and advisory company.
They deliver technology-related insight for clients to help them make the best decisions. They
work with clients to research, analyze and interpret the business of IT within the context of their
individual roles through the resources of Gartner Research, Gartner Executive Programs, Gartner
Consulting and Gartner Events. Founded in 1979, Gartner is headquartered in Stamford,
Connecticut, and is presently the largest company of their kind.
http://www.gartner.com/it/about_gartner.jsp
12
     “Taking Your PMO to the Next Stage”, Gartner, © 2006
13
     “The CMMI for Development Value Proposition for the PMO”, Gartner, © 2008


07/14/08                                          6                            For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY


      Utilize the GPO instruction 705.28 as the foundation for the responsibilities between
       programs and projects.
      Keep the delineation between programs and projects clearly defined to prevent confusion,
       at least for the near term while the organizations are forming.
      Start simple and focus on establishing and institutionalizing appropriate “best practices”
       in project and program management including relevant processes, templates, and tools.
      Have a long range goal of implementing components of portfolio management where it
       makes sense for GPO
      Establish goals for specific process areas to be part of the GPO core project/program
       competency and establish a review cycle (such as annual) to grade efforts on achieving
       these goals and establishing new ones for the next cycle.

Cost and Schedule Review
This section provides a comparison of the delivered cost and schedule performance against the
baseline cost and schedule for the project, and identifies recommendations for future Oracle
projects.

                                 Schedule Analysis Review

The baseline schedule for the Oracle Implementation Release 2 project was defined in the
contractor’s proposal in the form of a project activities timeline. Each week prior to the weekly
status meetings, a weekly report is distributed that shows schedule adherence and highlights the
tasks that are identified as behind schedule. The project was on track until the go live date was
adjusted from August to October due to an internal desire to reduce audit expenditures associated
with year end audit functions in two systems. The project is currently identified as being on
track with the revised October go-live date. However, there remains the risk of a schedule delay
if unidentified mandatory requirements are discovered during the final phases of the project
(such as during design review or User Acceptance Testing). For example, there remain
unanswered questions on IRS Envelope, On-line Paper, and FedEx Kinko’s processing that were
revealed in the Projects CRP 1 sessions. Processes to handle these transactions have yet to be
finalized and could result in further requirements discovery.

                                   Cost Analysis Review

The costs and the progress made are being tracked on a monthly basis and Earned Value
Management (EVM) has been partially implemented on this project. The Office of Management
and Budget (OMB) memorandum M-05-23 mandates the use of an Earned Value Management
System (EVMS) compliant management control system for all new major IT projects, ongoing
major IT developmental projects, and high risk projects in order “to better ensure improved
execution and performance as well as promote more effective oversight”. While GPO does not
have to comply with OMB memoranda, EVM is a project management best practice.

An approved EVM system has not been formally identified. However, EVM concepts have been
partially implemented. Cost tracking based on EVM reporting indicates costs are currently on


07/14/08                                       7                           For Official Use Only
          PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY

          track with the revised October go-live date. This is difficult to verify since work packages have
          not been defined in sufficiently detail. Better work breakdown structure elaboration and
          definition of the discrete work packages would assist future Oracle releases to make better use of
          the EVM.

          Performance Analysis Review
          This section will provide the results of the IV&V review of the deliverables, resources, and issue
          resolution process associated with the Release 2 project.

                                                       Deliverables

          Deliverables are the specific work products that are expected to be produced as a result of
          efforts. Deliverables represent “what” was purchased with the money and efforts of the program.
          Specific deliverables should be defined, including expectations of the content, along with a
          process for acceptance of these deliverables (with sufficient time for technical validation).

          For the Release 2 project, a substantial number of deliverables were specified in the contractor’s
          accepted technical proposal. See below:

                                                                                                      GPO
                                                                                                                 Actual Date
 Task #                                          Deliverable                                         Delivery
                                                                                                                  Delivered
                                                                                                      Date *
3.1.1        Plan for Conducting Discovery / Requirements Generation
3.1.2        High-Level Gap Analysis                                                                 4 Feb 08    4 Feb 08
  3.1.2.1    Documentation of the As-Is Baseline State                                               4 Feb 08    4 Dec 07
3.1.3        Business Requirements Mapping Document                                                  4 Feb 08
3.1.4        Mapped Business Requirements                                                            4 Feb 08
3.1.5        Issues Database and Issue Management Process and Reports                                4 Feb 08    9 Apr 08
3.1.6        GPO Oracle-based Business Processes                                                     11 Jul 08
3.1.7        Requirements Traceability Matrix                                                        4 Feb 08    15 Mar 08
3.1.8        Project Plan                                                                            4 Feb 08    27 Nov 07
  3.1.8.1    Project Roles and Responsibilities Document                                             11 Jul 08
3.1.9        WBS                                                                                     4 Feb 08
3.2.1        CRP Execution Strategy (with testing scope and boundaries) and Resourced Plan
3.2.2        Completed Initial Oracle Inventories CRP                                                Mar 08      Mar 08
3.2.3        Completed Initial Oracle Purchasing CRP                                                 Mar 08      Mar 08
3.2.4        Completed Initial Oracle Project Costing, Project Billing and Expenses CRP              Mar 08      Mar 08
3.2.5        GAP Analysis Response with approaches to deal with each gap identified
  3.2.5.1    Updates to Requirements and Plans                                                       4 Feb 08
3.2.6        Completed Second Oracle Inventories CRP                                                 May 08      15 May 08
3.2.7        Completed Second Oracle Purchasing CRP                                                  May 08      29 Apr 08
3.2.8        Completed Second Oracle Project Costing, Project Billing and Expenses CRP               May 08
3.2.9        Completed GAP Analysis Response with approaches to deal with each gap identified
  3.2.9.1    Completed Updates to Requirements and Plans                                             11 Jul 08
  N/A        Interface, Conversion and Extension Strategy                                                        5 Feb 08
             System Architecture Diagrams with High-Level (Business Object Level - e.g. Vouchers,    11 Jul 08
3.3.1        Invoices, Approvals, etc.) Data Flows


          07/14/08                                             8                               For Official Use Only
          PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY

                                                                                                       GPO
                                                                                                                  Actual Date
 Task #                                             Deliverable                                       Delivery
                                                                                                                   Delivered
                                                                                                       Date *
3.3.2        Technical Documentation
             Updated Oracle Applications Set-up Documents with Final Set-up Document Prior to         11 Jul 08
  3.3.2.1    Go-Live
  3.3.2.2    Data Conversion and Technical Design Document                                             P&G 5
  3.3 2.3    Interface Technical Design Document                                                       P&G 5
  3.3.2.4    Reports/Queries Technical Design Document                                                 P&G 5
3.3.3        Conversion and Interface Routines/Coding Documentation                                    P&G 5
3.3.4        Test Strategy, Master Plan, and Schedule                                                 11 Jul 08
  3.3.4.1    Unit and System Test Scripts                                                             11 Jul 08
  3.3.4.2    User Acceptance Test Plans                                                                P&G 5
  3.3.4.3    Data Conversion Test Plans                                                                P&G 5
3.3.5        Employee Signed-Off completed User Acceptance Forms                                       P&G 5
3.3.6        Implementation Cut-Over Plan and Deployment Checklist                                     P&G 5
  3.3.6.1    Revised Oracle Applications Set-up Documentation                                          P&G 5
3.3.7        Transition to Production Plan and Schedule                                                P&G 5
3.3.8        User Manuals and Training                                                                 P&G 5
3.3.9        Attendance Rosters of Trained Employees                                                   P&G 5
3.3.10       Configured Production Instance                                                            P&G 5
3.4.1        Completed Designated Accreditation Authority (DDA) Sign-Off Form from CIO                 P&G 6
3.4.2        Updated Production Roles and Responsibilities Document                                    P&G 6
3.4.3        List of Potential Business Process and Systems Enhancements for GPO                       P&G 6
OSA-10       Architecture Requirements Document                                                        P&G 7
OSA-90       Architecture Design Document                                                              P&G 7
* “P&G” refers to the GPO Phase and Gate number. See Appendix 1.

          Table 1: Release 2 Deliverable Listing


                                                            Resources

          Resource management involves identifying and assigning project roles and responsibilities for
          the activities associated with the implementation of a program and associated projects. No issues
          were identified during this review involving resource management.

                                                        Issue Resolution

          Issue tracking involves the identification, tracking, and resolution of problems associated with a
          project. It is important to track the issues, both to ensure that a successful resolution is reached
          on all items and to supply a historic record of issues associated with the project to assist in
          planning efforts for future projects.
          Release 2 issues and comments are tracked via the Comments Tracking Document with a unique
          number assigned. These issues are compiled weekly based on the CRPs, meetings, and the
          Oracle Release 2 mailbox entries. Outstanding issues were discussed in separate, small
          stakeholder meetings with the parties that are directly affected as to provide a more focused


          07/14/08                                                 9                            For Official Use Only
    PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY

    atmosphere. The overall project highlights are then reviewed during the weekly status meetings
    with the contractor and between the project office and the program office and fall into four (4)
    major categories or groupings:
        Key Tasks Planned (for the past week)
        Key Accomplishments
        Issues / Tasks Behind Schedule
        Key Upcoming Activities (for upcoming week)

    IV&V noted that the tracking process for Release 2 did not assign resolution for outstanding
    issues to the responsible party.
    It is recommended that issue tracking include the assignment of the responsible party for the
    resolution, that the issue tracking process be formally documented, and that an issue tracking
    process be a formalized deliverable.

    RECOMMENDATIONS
    Recommendations provided throughout the report for current and future projects are captured in
    the table below:

                                                                                             Release 1
                       Recommendation                                 Current Future Recommendation14
1   Develop a Project Management Plan to serve as the overarching
                                                                                  X
    integration framework for project activities.
2   Ensure that future Concept of Operations (CONOPS) documents
    provide sufficient detail and more thoroughly match the IEEE
    Standard 1363 (or similarly accepted format such as ANSI                      X
    Standard G-043-1993 “Guide for the Preparation of Operational
    Concepts Documents”).
3   Future releases should more proactively manage stakeholder
    relationships from project initiation to minimize change                      X              X
    management difficulties.
4   Develop a formal Communications Plan. This plan should
    define:
    o The methods for gathering and storing information
    o Mechanism for capturing issues and risks
    o A distribution structure that identifies who will receive the
    information, and at what frequency                                            X              X
    o The types of information to be distributed
    o The responsible party for the data distribution
    o Processes for communicating to all stakeholders
    o Methods for accessing information between scheduled
    communications



    14
      Items identified in this column were originally recommended in the Early Oracle
    Implementation: Program Review Summary and Risk Assessment Report, dated December 19,
    2005.


    07/14/08                                         10                         For Official Use Only
     PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY


                                                                                                Release 1
                         Recommendation                                    Current Future Recommendation14
5    Document performance measures up-front that will enable GPO
     to identify and manage specific benefits being delivered. These
                                                                                      X            X
     measures should be reviewed periodically and project measures
     need to be tied to program objectives.
6    Develop an Organizational Change Management (OCM)
     approach at the program level to more effectively enable affected                X
     stakeholders to adopt changes being introduced.
7    Utilize the GPO instruction 705.28 as the foundation for the
     responsibilities between programs and projects. Program
     responsibilities should include strategic items such as stakeholder
     management, benefits management, and program governance as                       X
     well as coordinating and optimizing resource allocation. Project
     responsibilities should include all of the tactical concerns,
     specifically including the GPO phase gate 2 and beyond.
8    Keep the delineation between programs and projects clearly
                                                                                      X
     defined to prevent confusion while the organizations are forming.
9    Start simple and focus on establishing and institutionalizing
     appropriate “best practices” in project and program management                   X
     including relevant processes, templates, and tools.
10   Have a long range goal of implementing components of portfolio
                                                                                      X
     management where it makes sense for GPO
11   Establish goals for specific process areas to be part of the GPO
     core project/program competency and establish a review cycle
                                                                                      X
     (such as annual) to grade efforts on achieving these goals and
     establishing new ones for the next cycle.
12   Adopt a process for evolving program and project management
     capabilities, functions, and roles as GPO becomes more mature at                 X
     program management.
13   Issue tracking should include the assignment of the responsible
     party for the resolution, that the issue tracking process be
                                                                             X        X            X
     formally documented, and that an issue tracking process be a
     formalized deliverable.
     Table 2: Recommendations




     07/14/08                                            11                         For Official Use Only
       PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY


       Challenges
       The following challenges were reported to the Oracle Program Executive Sponsor and the GPO Chief Information Officer during
       monthly IV&V updates.

                                                                                                       Date
ID #                                             Challenge                                                                           Status
                                                                                                     Reported
R2-1       Projects CRP sessions did not adequately address user processes                                     Some issues remain unresolved (user
                                                                                                               processes still being finalized)
R2-2       “To-Be” processes (in particular Revenue cycle)                                                     Not documented in sufficient detail to
                                                                                                     4/17/2008 validate
R2-3       Issues raised in CRPs do not appear to be documented in a consolidated cohesive           4/22/2008 Managed by dedicated email and issue
           manner                                                                                              list
R2-4       Requirement documents are well developed, specific requirements not referenced                      Requirements not referenced during
           during CRP1 sessions                                                                                CRP1 or CRP2
R2-5       CRP 2 is improved from CRP 1 but issues still remain                                                Some issues remain unresolved (users
           – Future processes not clearly understood by users; Significant discovery still appears             remain daunted by new processes, test
           to be occurring; Some sessions observed had low user participation                                  instance requested)
R2-6       Escalation/resolution processes for issues not clearly defined                                      Improved but some issues remain
           – Issues tracking improved; increased communication channels; Appears to be lack of                 unresolved (CCB or other executive
                                                                                                     5/12/2008
           clarity on management of requirements and scope; No clear role for CCB or other                     body needed for scope management.
           executive body in scope management role
R2-7       Process reengineering for “to-be” processes not clearly defined                                      See R2-2
           – Some cases of confusion on process owner; Lack of identification of change agent;
           Lack of clarity on process for approved changes
R2-8       Beginning to Develop Test Plans                                                                      Outcome undetermined
           – May be late start based on project schedule
R2-9       No defined overall test strategy/plan has been reviewed                                              Not available
           – Unclear as to how full requirements will be verified (linkage with RTMs) or how         6/4/2008
           success criteria are defined
R2-10      CM and Change Processes may be too late to impact Release 2                                          Started but will not be available for
           – Draft process due in June; May not be a robust prototype for Release 3                             use during Release 2


       Table 3: Release 2 Challenges


       07/14/08                                                               12                                                For Official Use Only
PROGRAM MANAGEMENT REVIEWFOR OFFICIAL USE ONLY
Appendix 1: GPO SDLC Phase Gates




07/14/08                                  13     For Official Use Only
Appendix A. Management’s Response
Appendix A
               Appendix B. Status of Recommendations


Recommendation No. Resolved     Unresolved   Open/ECD*   Closed
          3                 X                              X
          4                 X                              X
          5                 X                              X
         13                 X                  TBD
*Estimated Completion Date.
